                   AUDIT REPORT

              Audit of NRC’s Oversight of ISFSI Security

                      OIG-11-A-10       May 3, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          May 3, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF ISFSI SECURITY
                            (OIG-11-A-10)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Oversight of ISFSI Security.

The report presents the results of the subject audit. Agency comments provided at the
April 13, 2011, exit conference have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5911.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Mary C. Muessle, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Acting Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                                      Audit of NRC’s Oversight of ISFSI Security


EXECUTIVE SUMMARY

        BACKGROUND

                 Independent Spent Fuel Storage Installations (ISFSI) are facilities licensed
                 by the U.S. Nuclear Regulatory Commission (NRC) to store dry casks
                 containing used nuclear reactor fuel, otherwise known as spent fuel.1
                 These massive structures typically contain spent fuel assemblies within a
                 sealed steel canister, which are located in a thick concrete and steel cask
                 for shielding and protection, and then placed on thick concrete pads for
                 added strength and stability. These casks can be stored either vertically
                 or horizontally in concrete storage bunkers.

                 With the anticipated growth of nuclear power in the United States, and the
                 uncertainty over the permanent storage of spent nuclear fuel at Yucca
                 Mountain,2 nuclear power plants have a growing need for additional spent
                 fuel storage capacity to support continued plant operation. ISFSIs are
                 generally regarded as a safe and practical means to store spent fuel as
                 they are passive systems that do not require the maintenance of spent
                 fuel pools.3

                 NRC, which regulates the safe and secure use of nuclear materials,
                 issues licenses and oversees licensee compliance with regulations for
                 ISFSI facilities. The first dry storage ISFSI was licensed by NRC in 1986.
                 As of April 2011, there were ISFSIs storing spent nuclear fuel or preparing
                 to store spent nuclear fuel in the near term at 57 different locations across
                 the United States. Of these ISFSI sites, 47 were located at operating
                 reactors and the remaining 10 were located away from an operating
                 reactor.




1
  NRC regulations allow the storage of spent fuel in both pool-type wet storage and dry casks. In 1971,
the first ISFSI license was issued to a wet storage facility. This remains the only non-dry cask ISFSI in
the United States.
2
  Yucca Mountain, Nevada, has been the leading candidate site for a spent nuclear fuel repository since
the 1980s. However, in recent years, scientific and political concerns have emerged over the suitability of
the location.
3
  Spent fuel pools are underwater storage facilities for spent nuclear fuel located within the reactor site.
These pools were the most common method to store spent fuel until the emergence of dry cask storage
in the late 1980s.


                                                      i
                                                  Audit of NRC’s Oversight of ISFSI Security


      Following the terrorist attacks of September 11, 2001, NRC conducted a
      comprehensive review of its security policies and procedures, including
      those related to spent fuel storage. NRC recognized the need to
      reexamine basic assumptions underlying the civilian nuclear facility
      security and safeguards programs and embarked upon a comprehensive
      review of these programs. NRC issued advisories and orders to licensees
      possessing spent nuclear fuel that identified additional security measures
      and directed licensees to reevaluate the adequacy of their security
      programs, plans, and procedures.


PURPOSE

      The audit objective was to determine the adequacy of NRC’s oversight of
      ISFSI security.


RESULTS IN BRIEF

      While NRC has taken steps to improve its oversight of ISFSI security, and
      the agency has not experienced any problems with ISFSI security, the
      Office of the Inspector General (OIG) identified the following opportunities
      to enhance management of the ISFSI security oversight program:

          Define key ISFSI security office roles and responsibilities.
          Update the ISFSI security inspection procedure.
          Train inspectors assigned to assess ISFSI security.
          Develop a centralized database of ISFSI security-related information.

      OIG acknowledges the agency’s post-September 11, 2001, categorization
      of ISFSIs as a relatively low security risk and its decision to place security
      resources on higher risk programs; however, making certain basic
      improvements in program management will facilitate the continued
      success of ISFSI security and prevent lapses that could occur in the
      absence of such improvements.




                                     ii
                                                Audit of NRC’s Oversight of ISFSI Security


RECOMMENDATIONS

     This report makes recommendations to improve the agency’s ISFSI
     security program. A list of these recommendations appears on page 14 of
     this report.

AGENCY COMMENTS

     At an exit conference on April 13, 2011, agency management stated their
     general agreement with the findings and recommendations in this report.
     Agency management also provided supplemental information that has
     been incorporated into this report, as appropriate. As a result, the agency
     opted not to provide formal comments for inclusion in this report.




                                   iii
                                            Audit of NRC’s Oversight of ISFSI Security


ABBREVIATIONS AND ACRONYMS

       ADAMS   Agencywide Documents Access and Management System

       ASM     Additional Security Measures

       FSME    Office of Federal and State Materials and Environmental
               Management Programs

       ICM     Interim Compensatory Measures

       ISFSI   Independent Spent Fuel Storage Installation

       NMSS    Office of Nuclear Material Safety and Safeguards

       NRC     U.S. Nuclear Regulatory Commission

       NSIR    Office of Nuclear Security and Incident Response

       OIG     Office of the Inspector General




                               iv
                                                                     Audit of NRC’s Oversight of ISFSI Security


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i

        ABBREVIATIONS AND ACRONYMS ................................................... iv

        I.    BACKGROUND .............................................................................. 1

        II.   PURPOSE ...................................................................................... 5

        III. FINDING ......................................................................................... 6

               IMPROVEMENTS ARE NEEDED IN THE ISFSI SECURITY PROGRAM ............ 6

        IV. AGENCY COMMENTS................................................................. 14


    APPENDIX

        SCOPE AND METHODOLOGY .......................................................... 15




                                                   v
                                                                    Audit of NRC’s Oversight of ISFSI Security


I.    BACKGROUND

                Independent Spent Fuel Storage Installations (ISFSI) are facilities licensed
                by the U.S. Nuclear Regulatory Commission (NRC) to store dry casks
                containing used nuclear reactor fuel, otherwise known as spent fuel.4
                These massive structures typically contain spent fuel assemblies within a
                sealed steel canister, which are located in a thick concrete and steel cask
                for shielding and protection, and then placed on thick concrete pads for
                added strength and stability. These casks can be stored either vertically
                or horizontally in concrete storage bunkers.




            Figure 1. Horizontal dry cask storage at Susquehanna.
            Source: NRC


                ISFSIs can be located in three types of locations: (1) the “protected area,”
                which is located within the security fence that surrounds a nuclear reactor;
                (2) the “owner-controlled area,” which is the area immediately outside the
                security fence that surrounds a nuclear reactor; and (3) away from an
                operating reactor, as in a standalone facility or in a decommissioned
                reactor site. All ISFSIs, regardless of location, are required to meet
                certain security standards to protect the facility.



4
  NRC regulations allow the storage of spent fuel in both pool-type wet storage and dry casks. In 1971,
the first ISFSI license was issued to a wet storage facility. This remains the only non-dry cask ISFSI in
the United States.


                                                     1
                                                                      Audit of NRC’s Oversight of ISFSI Security




    Figure 2. Nuclear Plant Security Zones
    Source: Nuclear Energy Institute


                 With the anticipated growth of nuclear power in the United States, and the
                 uncertainty over the permanent storage of spent nuclear fuel at Yucca
                 Mountain,5 nuclear power plants have a growing need for additional spent
                 fuel storage capacity to support continued plant operation. ISFSIs are
                 generally regarded as a safe and practical means to store spent fuel as
                 they are passive systems that do not require the maintenance of spent
                 fuel pools.6




5
  Yucca Mountain, Nevada, has been the leading candidate site for a spent nuclear fuel repository since
the 1980s. However, in recent years, scientific and political concerns have emerged over the suitability of
the location.
6
  Spent fuel pools are underwater storage facilities for spent nuclear fuel located within the reactor site.
These pools were the most common method to store spent fuel until the emergence of dry cask storage
in the late 1980s.


                                                      2
                                                           Audit of NRC’s Oversight of ISFSI Security


               NRC, which regulates the safe and secure use of nuclear materials,
               issues licenses and oversees licensee compliance with regulations for
               ISFSI facilities. The first dry storage ISFSI was licensed by NRC in 1986.
               As of April 2011, there were ISFSIs storing spent nuclear fuel or preparing
               to store spent nuclear fuel in the near term at 57 different locations across
               the United States. Of these ISFSI sites, 47 were located at operating
               reactors and the remaining 10 were located away from an operating
               reactor. Figure 3 is a map of ISFSI locations within the United States.




Figure 3. U.S. ISFSI Map, April 2011
Source: NRC OIG


               Security Requirements

               Following the terrorist attacks of September 11, 2001, NRC conducted a
               comprehensive review of its security policies and procedures, including
               those related to spent fuel storage. NRC recognized the need to
               reexamine basic assumptions underlying the civilian nuclear facility
               security and safeguards programs, and embarked upon a comprehensive
               review of these programs. As part of this effort, NRC conducted


                                              3
                                                                   Audit of NRC’s Oversight of ISFSI Security


                assessments of the potential consequences and risks of terrorist attacks
                on a broad range of licensed facilities and activities, including spent fuel
                storage. These assessments helped NRC determine where efforts should
                initially be directed. This prioritization placed ISFSIs low on the priority list
                based on the robust structure of the ISFSI, and the fact that a majority of
                the ISFSIs are co-located with nuclear reactor facilities.7

                NRC also issued advisories and orders to licensees possessing spent
                nuclear fuel that identified additional security measures and directed
                licensees to reevaluate the adequacy of their security programs, plans,
                and procedures. In October 2002, NRC issued “Interim Compensatory
                Measures (ICM) for Dry Independent Spent Fuel Storage Installations” to
                all ISFSI licensees. This document served as the single security order for
                all ISFSI licensees until 2007, when it was replaced by “Additional Security
                Measures (ASM) for the Protection of Dry Independent Spent Fuel
                Storage Installations.” The ASM contains the same requirements as the
                ICM but was renamed to remove any connotation of a “temporary” status.
                While licensees that originally received the ICM must comply with that
                particular order, all ISFSIs licensed subsequent to September 2007 must
                comply with the ASM.

                NRC Office Responsibilities

                The two primary offices involved in ISFSI security oversight are NRC’s
                Office of Nuclear Material Safety and Safeguards (NMSS) and the Office
                of Nuclear Security and Incident Response (NSIR).

                NMSS is responsible for the oversight of safe storage, transportation, and
                disposal of high-level radioactive waste and spent nuclear fuel. As part of
                these responsibilities, NMSS implements a regulatory program that
                includes ISFSI licensing, inspection, and assessment of licensee
                performance.

                NSIR is the technical support office for the ISFSI security program. NSIR
                develops overall agency policy and provides management direction for
                evaluation and assessment of technical issues involving security at
                nuclear facilities. NSIR is also responsible for developing emergency
                preparedness policies, regulations, programs, and guidelines for both

7
  All nuclear reactors were deemed a high priority and therefore the co-located ISFSIs were already
receiving additional security requirements by association.


                                                    4
                                                     Audit of NRC’s Oversight of ISFSI Security


          currently licensed nuclear reactors and potential new nuclear reactors.
          Related to ISFSI security, NSIR writes the security orders and the
          inspection guidelines and serves as the main point of contact for any
          technical questions related to the ISFSI security program. Furthermore,
          NSIR staff have traveled to NRC regional offices to provide training on
          ISFSI security as well as help conduct ISFSI security inspections.

          Inspection Guidance

          NRC conducts inspections to ensure licensee compliance with regulatory
          security requirements. ISFSI security inspections are primarily conducted
          by NRC’s four regional offices, in accordance with Temporary Instruction
          2690, “Inspection of Additional Security Measures for Dry Cask Storage at
          Independent Spent Fuel Storage Installation(s).” Temporary Instruction
          2690 is not part of the permanent inspection program and will expire in
          June 2011.

          NRC is currently working to formalize the ISFSI security orders into a
          regulation through the rulemaking process. The goal of the rulemaking is
          to update and clarify the regulations to support the current regulatory
          environment, address insights gained from the previous ISFSI security
          assessments, and apply a consistent approach across all ISFSIs
          irrespective of their location. One NRC staff member heavily involved with
          this effort estimates that this rulemaking process will take an additional 5
          to 7 years for complete implementation of the regulation.



II.   PURPOSE

          The audit objective was to determine the adequacy of NRC’s oversight of
          ISFSI security. The report Appendix contains information on the audit
          scope and methodology.




                                        5
                                                      Audit of NRC’s Oversight of ISFSI Security


III. FINDING

          Improvements Are Needed in the ISFSI Security Program

          While NRC has taken steps to improve its oversight of ISFSI security, and
          the agency has not experienced any problems with ISFSI security, the
          Office of the Inspector General (OIG) identified the following opportunities
          to enhance management of the ISFSI security oversight program:

               Define key ISFSI security office roles and responsibilities.
               Update the ISFSI security inspection procedure.
               Train inspectors assigned to assess ISFSI security.
               Develop a centralized database of ISFSI security-related information.

          OIG acknowledges the agency’s post-September 11, 2001, categorization
          of ISFSIs as a relatively low security risk and its decision to place security
          resources on higher risk programs; however, making certain basic
          improvements in program management will facilitate the continued
          success of ISFSI security and prevent lapses that could occur in the
          absence of such improvements.

          Structured and Efficient Programs

          According to Federal Government guidance, including the Government
          Accountability Office’s “Standards for Internal Control in the Federal
          Government,” a program’s efficiency is dependent on (1) clearly
          delineated roles and responsibilities of offices and individuals involved to
          avoid confusion and ensure that people understand their roles and
          responsibilities, (2) guidance documents to establish management
          expectations and ensure that all staff involved understand their roles, (3)
          training to ensure that employees have the skills needed to perform their
          work, and (4) data that is organized to facilitate use by staff and managers
          for decisionmaking.

          Improvements in ISFSI Security Program Needed

          NRC has made efforts to strengthen its oversight of ISFSI security since
          the terrorist attacks of September 11, 2001; however, the program lacks:




                                         6
                                                                     Audit of NRC’s Oversight of ISFSI Security


                 A. An overarching process document to ensure that the various offices and
                    entities with ISFSI security program responsibilities are carrying out
                    their responsibilities efficiently and effectively, especially given the
                    number of different offices involved.

                 B. A permanent ISFSI security inspection procedure.

                 C. Inspectors trained specifically on ISFSI systems and security.

                 D. A single database of ISFSI security information that is consistently
                    organized and accessible to inspectors and program managers.

                          (A) Overarching Process Documentation Needed

                  NMSS, NSIR, and the Office of Nuclear Reactor Regulation, along with
                  four regional divisions, have all played important roles in providing
                  oversight of ISFSI security. NMSS is responsible for issuing the security
                  requirements to ISFSI licensees and providing the resources to the
                  inspectors who conduct the security inspections. NSIR developed and
                  maintains the additional security requirements over ISFSIs and the
                  technical guidance used by inspectors to ensure licensee compliance with
                  security orders. The Office of Nuclear Reactor Regulation issued
                  Inspection Procedure 81001, “Independent Spent Fuel Storage
                  Installations.”8 Regional inspectors have the responsibility for ensuring
                  licensee compliance; however, each NRC regional office determines
                  which regional inspection group will conduct these inspections. Two
                  regions utilize inspectors based within the Division of Nuclear Materials
                  Safety, who have materials safety qualifications (primarily health
                  physicists), and two regions utilize inspectors based within the Division of
                  Nuclear Reactor Safety, who have reactor security qualifications.

                  Although staff involved with ISFSI security oversight understand their
                  roles, there is no process document that outlines the roles and
                  responsibilities of all offices involved. Without this global perspective,
                  there are no assurances that lapses do not occur with the shared
                  responsibilities. The following examples illustrate some of the challenges
                  and inefficiencies in program management based on the lack of an
                  overarching process document.


8
    This inspection procedure was issued in 1991 to establish security inspection procedures for ISFSIs.


                                                      7
                                            Audit of NRC’s Oversight of ISFSI Security


Example 1: While NSIR developed the additional security requirements
over ISFSIs after September 11, 2001, it was NMSS who issued these
requirements to licensees through security orders. Licensees were
required to submit responses on their implementation schedules, any
compliance issues, and when compliance is achieved. These responses
were returned to NMSS; however, NSIR staff, who are the technical
experts on the details of the security requirements, were not involved with
reviewing these responses. NSIR’s involvement with this type of licensee
compliance verification only began after NSIR issued Temporary
Instruction 2690 in 2008.

Example 2: Because the regional offices use different groups of
inspectors to conduct ISFSI security inspections, there is no single forum
for all counterpart ISFSI security inspectors to discuss their findings or
concerns. While there are counterpart meetings and weekly telephone
calls involving the four regional materials divisions and also involving the
four regional reactor divisions, only two groups of ISFSI security
inspectors attend either meeting. The two regions using reactor-based
inspectors attend one set of meetings while the two regions using
materials-based inspectors attend the other set of meetings. Therefore,
all groups involved with ISFSI security do not regularly communicate.

Example 3: During interviews conducted by OIG, one senior NSIR official
and 26 percent of the 23 regional inspectors and managers interviewed
referred to Inspection Procedure 81001 as being part of the ISFSI security
program when, in fact, this inspection procedure was rescinded in 2001.
Furthermore, it was not until November 2010 that an NSIR manager
discovered that the Office of Nuclear Reactor Regulation had rescinded
this inspection procedure in 2001. NSIR managers said they were
unaware this had occurred and that it had not been communicated to
them.

       (B) Inspection Procedure Needed

The ISFSI security program lacks clear documentation of expectations for
the security inspection program. Specifically, there is no inspection
procedure related to current ISFSI security requirements. After the
security orders were issued to licensees beginning in October 2002, NRC
did not issue any updated inspection guidance to check licensee
compliance until 2008. Currently, inspectors use Temporary Instruction
2690, “Inspection of Additional Security Measures for Dry Cask Storage at


                               8
                                           Audit of NRC’s Oversight of ISFSI Security


Independent Spent Fuel Storage Installation(s),” to evaluate licensee
compliance with the related security orders. This temporary instruction
requires inspectors to conduct only an initial security inspection on all
ISFSI licensees, but does not mandate any additional inspections or
reviews to ensure compliance.

Furthermore, Temporary Instruction 2690 provides only basic information
on how to conduct the inspection and does not clearly define what
licensee measures would satisfy the security requirements. For example,
it states that inspectors should “verify that the licensee performed
sufficient analyses.” The use of “sufficient” is subjective and up to
individual inspector interpretation to determine if a licensee’s actions
address the intent of the security requirements. As a result, some
licensees said that they have observed regional differences in how
inspections are conducted and the level of review conducted by the
inspectors.

One NSIR official and several inspectors commented that the temporary
instruction lacks sufficient specificity. The NSIR official stated that the
temporary instruction leaves too much to the inspector’s discretion.
According to the NSIR official, the instructions are not descriptive or
precise enough, which allows differing interpretations by inspectors with
different backgrounds. A regional inspector told OIG he would like to see
an established inspection frequency, as well as guidance, to help
inspectors understand expectations. Two other inspectors stated that
specific examples are needed in the inspection guidance to help
inspectors determine if licensee actions meet the security requirements.

NSIR has made significant strides toward developing more detailed
guidance documentation. A long-term effort is underway to establish a
regulation to formalize the security requirements over ISFSIs through the
rulemaking process. In the meantime, NSIR has been working to reinstate
Inspection Procedure 81001 to provide more extensive, formal guidance
for ensuring licensee compliance with ISFSI security orders. This
reinstated inspection procedure will also establish a regular inspection
frequency. NSIR anticipates this inspection procedure will be
implemented in June 2011, when Temporary Instruction 2690 expires.




                              9
                                           Audit of NRC’s Oversight of ISFSI Security


      (C) Formal Qualification Program Needed

There is no established qualification program to train and qualify
individuals as “ISFSI security” inspectors. Each region makes
determinations on who should conduct ISFSI security inspections. While
the individuals selected to conduct ISFSI security inspections have been
qualified as inspectors under at least one of NRC’s two inspector
qualification programs, neither of the programs focuses specifically on
ISFSI security. NRC’s two qualification programs focus on different
aspects of regulation and inspection:

   Inspection Manual Chapter 1246, “Formal Qualification Programs in
   the Nuclear Material Safety and Safeguards Program Area,” outlines
   training and qualification requirements for those inspecting materials
   safety.

   Inspection Manual Chapter 1245, “Qualification Program for Operating
   Reactor Programs,” outlines training and qualification requirements for
   those inspecting reactor security.

Consequently, inspectors qualified under Inspection Manual Chapter 1246
lack detailed training of the security environment related to ISFSIs. One
inspector qualified under Inspection Manual Chapter 1246 stated that
security is a very specialized area and that these inspections are not
something that can just be added on to his duties as a materials inspector.
The inspector said that security is too important an area to have
unqualified people performing inspections as non-experts cannot identify
security weaknesses or vulnerabilities. A different inspector with a
materials background said that he is not completely comfortable with
conducting inspections on ISFSIs located within the protected area
because he feels he needs more training in that area.

Inspectors qualified under Inspection Manual Chapter 1245 lack detailed
training on ISFSI systems and equipment. Several inspectors qualified
under Inspection Manual Chapter 1245 stated that having some sort of
training course with basic information and guidance related to ISFSIs
would be useful.




                             10
                                                                      Audit of NRC’s Oversight of ISFSI Security


                Of the 23 regional inspectors and managers interviewed, 18 said they
                believe there should be some form of ISFSI security training. One
                regional manager remarked that there should be a formalized ISFSI
                security training program as ISFSIs are unique and do not fall exclusively
                under reactors or materials.

                NSIR has recently initiated discussions to establish a formal “ISFSI
                security” inspector qualification program. One NRC manager involved
                with the project stated that NSIR plans to develop individual-based training
                requirements based on the inspectors’ previous qualifications. Those
                inspectors qualified under Inspection Manual Chapter 1246 would be
                required to take additional training courses that include different security
                aspects, while those inspectors qualified under Inspection Manual Chapter
                1245 would be required to take additional training courses that focus on
                the design and functionality of ISFSIs. This effort is in an early stage and
                an NSIR manager estimates that it will take approximately 2 years to
                establish any formal qualification program.

                         (D) Centralized Repository Needed

                There is no centralized database that contains ISFSI security-related
                information. Currently, ISFSI security-related information is located in
                multiple database systems. Specifically, security orders issued and
                individual licensee responses to these orders are located within the
                Agencywide Documents Access and Management System (ADAMS), one
                of NRC’s electronic recordkeeping systems. However, if any of this
                information is considered Safeguards Information,9 it may not be stored
                within ADAMS, but instead must be stored in the agency’s new electronic
                Safeguards Information filing system. Furthermore, easy retrieval of ISFSI
                information within ADAMS is not always possible. ISFSI information is
                usually stored within ADAMS by the unique ISFSI license number;
                however, since a majority of ISFSIs are co-located with reactors, the
                related ISFSI information is sometimes stored under the reactor license
                number. One inspector stated that his region’s reports are filed under the
                reactor license number because the ISFSI inspection was performed in
                conjunction with a reactor security inspection.


9
 Safeguards Information is a special category of sensitive unclassified information authorized by the
Atomic Energy Act of 1954. Safeguards Information is protected similar to Government classified
confidential information and significantly more than other sensitive unclassified information (e.g., privacy
and proprietary information).


                                                     11
                                            Audit of NRC’s Oversight of ISFSI Security


Without a centralized repository, inspectors are unable to quickly and
easily research information prior to performing security inspections. One
NRC official stated that when conducting security inspections, it is
important to do some prior research such as reviewing security orders
issued to that site and the licensee’s response as to how the licensee will
comply with these requirements. Because there is no organized way of
finding such information, individual inspectors must take time to try to
locate related information stored within multiple systems, including
ADAMS and the electronic Safeguards Information filing system. Another
headquarters employee stated that the Safeguards Information located in
this system can be very difficult to find because it is not categorized well.
Furthermore, a regional branch chief remarked that there have been
instances where the licensee had documents or information related to
their site that NRC should have had, but did not have, in its records.

In October 2005, NMSS developed an office instruction, SFPO-17,
“Issuance, Processing, and Tracking of Security-Related Orders,” that
required NMSS to track the status of all security-related orders issued to
materials licensees in a centralized database. This database was to help
track the status of licensee compliance with security orders. However, 1
year later, in October 2006, NMSS was divided to create an additional
NRC office, the Office of Federal and State Materials and Environmental
Management Programs (FSME). As a result, the responsibility of
maintaining the new database shifted from NMSS to FSME. While the
database contained some ISFSI information, no new ISFSI information
was entered into the system after the database responsibility was
transferred.

While the 2005 effort to organize ISFSI security information was never
completed, NSIR has begun a new effort to organize and centralize
security-related ISFSI information. Specifically, NSIR has created a
SharePoint site, which is an online centralized database for document
sharing. However, the success of this database depends on the input and
participation of the staff involved with the program.

ISFSI Security Program Has Been a Low Priority

NRC lacks (a) a single entity to facilitate coordination among the various
offices with roles pertaining to ISFSI security, (b) a permanent inspection
procedure, (c) ISFSI security training for inspectors, and (d) a centralized



                              12
                                           Audit of NRC’s Oversight of ISFSI Security


database with ISFSI security information because the ISFSI security
program has been a low priority. In the aftermath of September 11, 2001,
NRC deemed ISFSI security to be a relatively low risk area, especially
when compared to operating reactors. Steps were taken to increase the
security requirements of ISFSI licensees; however, additional steps are
needed to make this low priority program as efficient and effective as
possible.

Agency managers also explained that the ISFSI security program has not
developed further because of significant knowledge loss within NSIR due
to staffing issues. In conducting numerous interviews with NRC staff and
management, it was noted that the main individual involved with ISFSI
security within NSIR unexpectedly passed away in 2009. This was a
significant loss for the ISFSI security group as this individual was the
subject matter expert and most of his knowledge and vision for the
program had not been transferred or documented. Over the past couple
of years, NSIR staff have attempted to replace the lost knowledge through
educating new staff and better documenting and organizing policies and
decisions made. However, the ISFSI security program has suffered
additional staff turnover, which has further impeded the group’s progress.

Lack of Efficient Management

By implementing several basic program management improvements, NRC
will promote coordination and efficient management of the ISFSI security
program. Without overarching program coordination, well-documented
roles and responsibilities, inspection guidance, a comprehensive training
program, and a centralized repository of security-related ISFSI
information, there is no clear basis for timely and fully informed decisions
which could result in licensee non-compliance with security requirements.
This could negatively impact NRC’s mission to ensure adequate protection
of public health and safety, promote the common defense and security,
and protect the environment.




                             13
                                                     Audit of NRC’s Oversight of ISFSI Security


         Recommendations

         OIG recommends that the Executive Director for Operations:

         1.    Develop and implement an overarching process document that
              defines and clearly documents the roles and responsibilities of all
              offices involved with ISFSI security.

         2.   Develop and implement a comprehensive ISFSI security inspection
              procedure which includes a defined frequency for inspections to
              occur.

         3.   Develop and implement a formal ISFSI security qualification program.

         4.   Develop and implement a centralized repository of relevant ISFSI
              security information.

IV.   AGENCY COMMENTS

         At an exit conference on April 13, 2011, agency management stated their
         general agreement with the findings and recommendations in this report.
         Agency management also provided supplemental information that has
         been incorporated into this report as appropriate. As a result, the agency
         opted not to provide formal comments for inclusion in this report.




                                       14
                                                   Audit of NRC’s Oversight of ISFSI Security

                                                                           Appendix
SCOPE AND METHODOLOGY

       Auditors evaluated the adequacy of NRC’s oversight over ISFSI security.
       The audit team reviewed relevant criteria, including “Interim
       Compensatory Measures (ICM) for Dry Independent Spent Fuel Storage
       Installations”; “Additional Security Measures (ASM) for the Protection of
       Dry Independent Spent Fuel Storage Installations”; “Physical Protection of
       Dry Independent Spent Fuel Storage Installations”; Inspection Procedure
       81001, “Independent Spent Fuel Storage Installations”; and Temporary
       Instruction 2690, “Inspection of Additional Security Measures for Dry Cask
       Storage at Independent Spent Fuel Storage Installation(s).”

       At NRC headquarters, in Rockville, MD, auditors interviewed NSIR and
       NMSS staff and managers to gain an understanding of their roles and
       responsibilities in the oversight of ISFSI security. Auditors also traveled to
       and interviewed NRC staff and management located in Region I (King of
       Prussia, PA), Region II (Atlanta, GA), Region III (Lisle, IL), and Region IV
       (Arlington, TX). Additionally, at Nuclear Energy Institute headquarters
       (Washington, D.C.), OIG interviewed representatives from the Nuclear
       Energy Institute and various licensees on their involvement within the
       ISFSI security program. Furthermore, auditors observed an ISFSI security
       inspection at Palo Verde Nuclear Generating Station located outside
       Phoenix, AZ.

       We conducted this performance audit at NRC headquarters and in the four
       NRC regional offices from September 2010 through January 2011 in
       accordance with generally accepted Government auditing standards.
       Those standards require that the audit is planned and performed with the
       objective of obtaining sufficient, appropriate evidence to provide a
       reasonable basis for any findings and conclusions based on the stated
       audit objective. OIG believes that the evidence obtained provides a
       reasonable basis for the report findings and conclusions based on the
       audit objective. Internal controls related to the audit objective were
       reviewed and analyzed. Throughout the audit, auditors were aware of the
       possibility or existence of fraud, waste, or misuse in the program. The
       work was conducted by Beth Serepca, Team Leader; Rebecca Underhill,
       Audit Manager; Maxinne Lorette, Senior Auditor; and Michael Blair,
       Management Analyst.




                                     15
